    DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Washington, D.C. 20201




November 28, 2011


TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of the Centers for Medicare & Medicaid Services’ Audits of Part D
               Sponsors’ Financial Records (A-03-10-00007)


The attached final report provides the results of our review of the Centers for Medicare
& Medicaid Services’ Audits of Part D sponsors’ financial records.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Stephen Virbitsky, Regional Inspector General, at (215) 861-4470 or
through email at Stephen.Virbitsky@oig.hhs.gov. We look forward to receiving your final
management decision within 6 months. Please refer to report number A-03-10-00007 in all
correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF THE CENTERS FOR
MEDICARE & MEDICAID SERVICES’
 AUDITS OF PART D SPONSORS’
     FINANCIAL RECORDS




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-03-10-00007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

To provide prescription drug benefits under Part D, the Centers for Medicare & Medicaid
Services (CMS) contracts with private organizations called “sponsors” that act as payers and
insurers. Sponsors may offer these benefits through a standalone prescription drug plan or as
part of a Part C managed care plan, known as a Medicare Advantage Prescription Drug Plan
(collectively, plans).

Section 1860D-12(b)(3)(C) of the Act and 42 CFR § 423.504(d)(1) require CMS to audit the
financial records of at least one-third of Part D sponsors that offer Part D drug plans annually
(one-third audits).

OBJECTIVE

Our objective was to determine whether CMS complied with certain Federal requirements in
conducting and resolving one-third audits of sponsors’ financial records.

SUMMARY OF FINDINGS

CMS did not fully comply with Federal requirements in conducting one-third audits of sponsors’
financial records. Specifically, CMS did not perform audits for a full one-third of the sponsors in
any of the audited contract years. CMS excluded certain contracts subject to audit because it
interpreted the statutory requirement as allowing it to do so.

Further, at the time of our fieldwork, CMS had not updated its standard operating procedure
(SOP) for audit resolution to reflect actual practices and to help ensure that sponsors reported
corrective actions to CMS in a timely manner. This diminished CMS’s ability to ensure that
corrective action was taken as rapidly as possible.

RECOMMENDATIONS

We recommend that CMS:

   •   audit one-third of all part D sponsors and

   •   update its SOP to ensure that policies and procedures are consistent with actual practices
       and help ensure that sponsors’ corrective actions are reported to CMS in a timely manner.

                                                 i
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS generally concurred with our recommendations
and described the actions it had taken or planned to take.

CMS also provided technical comments, which we addressed as appropriate. This information
did not cause us to amend our findings or recommendations. CMS’s comments, excluding
technical comments, are included as the Appendix.




                                             ii
                                          TABLE OF CONTENTS
                                                                                                                                Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Part D .............................................................................................1
              Centers for Medicare & Medicaid Services One-Third Audits .....................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          ONE-THIRD AUDIT REQUIREMENTS ................................................................3
               Federal Requirements ....................................................................................3
               One-Third Audit Requirement Not Met .......................................................3
               Exclusion of Certain Contracts ......................................................................4

          AUDIT POLICIES AND PROCEDURES ................................................................5
               Federal Guidance ...........................................................................................5
               Actual Practices Not Reflected in Policies and Procedures ...........................5

          RECOMMENDATIONS ...........................................................................................5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................6

OTHER MATTERS ............................................................................................................6

          ALL CONTRACTS NOT AUDITED AT LEAST ONCE
           EVERY 3 YEARS ..................................................................................................6

          SPONSOR SYSTEMIC ISSUES NOT ADDRESSED
           BY ONE-THIRD AUDITS ....................................................................................6

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

To provide prescription drug benefits under Part D, the Centers for Medicare & Medicaid
Services (CMS) contracts with organizations called “sponsors” that act as payers and insurers.
Sponsors provide a minimum set of prescription benefits, referred to as the “basic” benefit.
Sponsors may offer these benefits through a standalone prescription drug plan (PDP) or as part
of a Part C managed care plan, known as a Medicare Advantage Prescription Drug Plan
(MA-PD), (collectively, plans). Sponsors may offer multiple plans under each contract. For
example, in 2006, there were approximately 200 organizations, 560 active contracts, and 3,939
plans.

Centers for Medicare & Medicaid Services One-Third Audits

Section 1860D-12(b)(3)(C) of the Act and 42 CFR § 423.504(d)(1) require CMS to annually
audit the financial records of at least one-third of Part D sponsors offering Part D plans
(one-third audits). A Part D sponsor as defined by 42 CFR § 423.4 is “a PDP sponsor, MA
organization offering a MA-PD plan, a PACE [Program of All-Inclusive Care for the Elderly]
organization offering a PACE plan including qualified prescription drug coverage, and a cost
plan offering qualified prescription drug coverage.” 1

CMS’s Office of Financial Management (OFM) is responsible for the one-third audits. OFM
interprets the one-third audit requirement as applying at the contract level for active contracts.
However, OFM generally selects just one plan (the plan with the largest enrollment offering
Part D benefits) to audit from each selected contract. OFM contracts with certified public
accounting (CPA) firms to perform the one-third audits, selects the contracts to audit, reviews
and approves the CPA firms’ audit reports, and forwards the approved reports to CMS’s Center
for Medicare. The Center for Medicare (1) reviews the approved reports to determine whether
the findings warrant compliance actions and (2) follows up with sponsors.

OFM’s one-third audit goals and objectives include reviewing audited plan solvency; related
party transactions; administrative costs; direct medical costs; and Part D costs and payments,
including direct and indirect remuneration and true out-of-pocket costs. CMS provides the CPA
firms with an audit guide covering these areas. OFM does not require the CPA firms to report
whether a finding might be a systemic issue found in all the plans under a contract. For the audit

1
 The Balanced Budget Act of 1997, P.L. No. 105-33, authorized the PACE program to provide comprehensive
services through a managed care arrangement to the elderly who are eligible for Medicare and Medicaid and require
nursing-home level services.

                                                        1
period, OFM requested that CPA firms audit some plans simultaneously for 2006 and 2007 to
satisfy the requirement for both years.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS complied with certain Federal requirements in
conducting and resolving one-third audits of sponsors’ financial records.

Scope

We reviewed the audit process for the one-third audits for 2006 and 2007. We reviewed the
selection process and 369 final one-third audit reports: 169 reports for 2006 and 200 reports for
2007. We reviewed one-third audit letters issued to sponsors with findings reported on their
audits. We also reviewed the audit selection process for the planned one-third audits for 2008.

Our audit objective did not require an understanding or assessment of the complete internal
control structure of CMS. We limited our internal control review to obtaining an understanding
of CMS’s policies and procedures for completing sponsor one-third audits.

We performed fieldwork at CMS’s Central Office in Baltimore, Maryland, and at CPA firms
located in Alexandria, Virginia, and Baltimore and Timonium, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed CMS’s policies and procedures relating to one-third audits;

   •    reviewed CMS’s methodology for selecting sponsors;

   •    interviewed CMS and CPA firm officials to obtain an understanding of the procedures
        used to conduct the one-third audits;

   •    reviewed all one-third audit reports and one-third audit letters for 2006 and 2007
        finalized on or before our field work;

   •    determined which sponsors had a one-third audit performed on any active plans for 2006
        through 2008; and

   •    summarized the audit findings and compliance actions for the one-third audits.



                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

CMS did not fully comply with Federal requirements in conducting one-third audits of sponsors’
financial records. Specifically, CMS did not perform audits for a full one-third of the sponsors in
any of the audited contract years. CMS excluded certain contracts subject to audit because it
interpreted the statutory requirement as allowing it to do so.
.
Further, at the time of our fieldwork, CMS had not updated its standard operating procedure
(SOP) for audit resolution to reflect actual practices and to ensure that sponsors reported
corrective actions to CMS in a timely manner. This diminished CMS’s ability to ensure that
corrective action was taken as rapidly as possible.

ONE-THIRD AUDIT REQUIREMENTS

Federal Requirements

Section 1860D-12(b)(3)(C) of the Act and 42 CFR § 423.504(d)(1) require that CMS audit at
least one-third of sponsors annually. Federal regulations (42 CFR § 423.4) refer to a sponsor as
“… a PDP sponsor, MA organization offering a MA-PD plan, a PACE organization offering a
PACE plan including qualified prescription drug coverage, and a cost plan offering qualified
prescription drug coverage.”

Section 1860D-21(c)(2) of the Act allows the Secretary of Health and Human Services to waive
the provisions of Part D “to the extent the Secretary determines that such provisions duplicate, or
are in conflict with, provisions otherwise applicable to the organization or plan under Part C or
as may be necessary in order to improve coordination of this part with the benefits under this
part.”

One-Third Audit Requirement Not Met

CMS did not perform audits for one-third of the sponsors in any of the audited contract years.
We calculated the number of audits needed to fulfill the one-third audit requirement by counting
the total active contracts subject to audit, including PACE program and demonstration contracts
that CMS excluded from 2006 through 2008. As shown in the table on the next page, CMS did
not meet the one-third audit requirement by 17 audits for 2006 and 15 audits for 2007. In
addition, CMS will not meet the one-third audit requirement by 25 audits for 2008.




                                                 3
                            Contracts To Meet One-Third Audit Requirement

                  Total Active        Total Active
                   Contracts           Contracts            OIG-
                   Subject to          Subject to         Calculated
Contract           Audit per           Audit per          One-Third           Contracts
 Year                OIG 2               CMS             Requirement           Audited          Discrepancy
 2006                 560                 495                186                169                  17
 2007                 647                 562                215                200 3                15
 2008                 780                 694                260                235                  25

Exclusion of Certain Contracts

Program of All-Inclusive Care for the Elderly Plans

CMS waived the one-third audit requirement for PACE organizations because it concluded that
the one-third audit provisions duplicated the audit requirements for PACE. However, the PACE
audit guide did not include the financial audit provisions required in the one-third audit guide.
Specifically, the audits conducted using the PACE audit guide were not designed to determine
the accuracy of the costs submitted for payment. For example, the one-third audit guide requires
that the contractors test for unreported direct and indirect remuneration, such as drug rebates
received from pharmaceutical manufacturers, whereas PACE audits do not include a review of
direct and indirect remuneration. One-third audits include tests of Prescription Drug Event
(PDE) data to verify the reported costs, whereas PACE audits match plan data to the summary
claims data received from the PDE contractor for consistency but do not verify that the reported
costs are accurate. Therefore, Part D audits of sponsors’ financial records do not duplicate or
conflict with CMS’s audits of PACE organizations.

Demonstration Contracts

CMS did not provide documentation that it had waived the one-third audit requirement for its
demonstration MA-PDs. CMS officials said that CMS excluded the contracts for demonstration
MA-PDs because these contracts, which are generally short term (1–3 years), are closely
monitored by other CMS components. However, of the 13 demonstration contracts active in
2008, 7 had been in effect for the entire 3-year audit period, and CMS did not provide any
documentation to indicate how one-third audits would duplicate or conflict with CMS’s
monitoring of these contracts. CMS also said that its one-third audit program would not apply to
many aspects of the demonstration program but did not provide support that the one-third audit
requirement did not apply to the demonstration projects. Rather, CMS officials stated that CMS
is planning to audit demonstration MA-PDs in its 2009 one-third audits.




2
    Office of Inspector General.
3
    Eighty-seven of the two hundred contracts were audited simultaneously for plan year 2006.

                                                          4
AUDIT POLICIES AND PROCEDURES

Federal Guidance

Federal agencies should establish policies and procedures to ensure that audit findings are
promptly resolved. The Government Accountability Office has published guidance on Standards
for Internal Control in the Federal Government. This guidance states that Federal agencies
document policies and procedures and that the documentation should be complete and updated to
reflect any changes to the policies and procedures. The guidance also states:

          Monitoring of internal controls should include policies and procedures for
          ensuring that the findings of audits and other reviews are promptly resolved.
          Managers are to… complete, within established time frames, all actions that
          correct or otherwise resolve the matters brought to management’s attention. The
          resolution process begins when audit or other review results are reported to
          management, and is completed only after action has been taken that (1) corrects
          identified deficiencies, (2) produces improvements, or (3) demonstrates the
          findings and recommendations do not warrant management action. 4

Actual Practices Not Reflected in Policies and Procedures

CMS’s audit policies and procedures have not been updated to reflect changes in actual practices
and to help ensure that sponsors’ corrective actions are reported to CMS in a timely manner. In
March 2010, CMS issued an SOP document entitled One-Third Financial Audits Contract
Management Compliance Process. The purpose of the SOP is to provide CMS with uniform
guidelines for implementing any contract compliance actions, such as the requirement for
sponsors to take any necessary corrective actions resulting from one-third audit findings. The
SOP includes a template for the letter that CMS was going to issue to sponsors. Although the
SOP states that sponsors must respond to and resolve findings requiring corrective action before
CMS can close the matter, the template letter does not include language instructing sponsors to
report corrective action to CMS. In May 2010, CMS began issuing letters to sponsors regarding
2006 and 2007 one-third audit findings with language that differed from the template letter. This
version of the letter instructed providers to report corrective action taken to CMS within 60 days
of date of the letter. However, the template letter included in the SOP was not updated to reflect
this change.

RECOMMENDATIONS

We recommend that CMS:

      •   audit one-third of all part D sponsors and

      •   update its SOP to ensure that policies and procedures are consistent with actual practices
          and help ensure that sponsors’ corrective actions are reported to CMS in a timely manner.
4
    GAO/IAMDAIMD-00-21-.3.1, Standards for Internal Control in the Federal Government, p. 20, November 1999.


                                                       5
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS generally concurred with our recommendations
and described the actions it had taken or planned to take.

CMS also provided technical comments, which we addressed as appropriate. This information
did not cause us to amend our findings or recommendations. CMS’s comments, excluding
technical comments, are included as the Appendix.

                                      OTHER MATTERS

ALL CONTRACTS NOT AUDITED AT LEAST ONCE EVERY 3 YEARS

Although the Act does not require CMS to audit every contract at least once every 3 years,
CMS’s current selection methodology does not ensure that contracts with increasing enrollment
are subject to a one-third audit on a timely basis. The number of active contracts varied from
year to year, but 443 contracts consistently remained active through the 3-year period 2006
through 2008. Of these 443 contracts, CMS did not select 84 contracts (19 percent) for a
one-third audit in any of the 3 years. Many of the 84 contracts had increasing enrollment. For
example, one contract had four plans under its Part D contract in 2006. The number of plans
under this same contract increased to 17 by 2008. Total enrollment under this contract grew
from approximately 2,385 beneficiaries in 2006 to approximately 23,270 beneficiaries in 2008.

SPONSOR SYSTEMIC ISSUES NOT ADDRESSED BY ONE-THIRD AUDITS

The Act and regulations allow CMS latitude in determining what satisfies the one-third audit
requirement. However, the effectiveness of the one-third audit requirement is limited because
the CPA firms are not required to report when deficiencies found under a single audited plan
may be systemic. Identifying systemic deficiencies would increase the impact of one-third
audits.

CPA firms audited one plan under each contract even though sponsors might have offered
multiple plans under each contract. For example, in 2006, there were approximately 560 active
contracts subject to audit offering approximately 3,939 plans. The CPA firms audited only one
plan in each of 169 contracts (approximately 4 percent of plans) and were not required to
determine whether a finding in an audited plan could be a systemic issue in all plans under the
contract.

At the time of our audit, CPA firm officials disagreed as to whether or not deficiencies found in
the plan audited could also be assumed to exist in the other plans under the same contract. One
CPA firm official did acknowledge, however, that he was able to determine the overall effect of
some findings for all plans under a contract. The CPA firm listed the overall effect in its report,
but the finding was based only on the plan it audited.




                                                 6
APPENDIX
                                                                                                        Page 1 of 2


        APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 




(~.?- D_E~PA_~TMENT O~H~A:T~ ~U_._~A~,~SE_~~:~_E_S
                                          &..                   __..__ _ _ _ _c_ e_n_ter_S_fO_r   Me__di_Ca_r:_&M__e~iCaid__SeNiCeS
  'S~                                                                                Administrator
                                                                                     Washington, DC 20201




        DATE:               SEP 2 9 2011
        TO:            Daniel R. Levinson
                       Inspector General

        FROM:          Domud M. Be.-w;ck.    M. ~ . .          \\ .\   1'1_   ~
                       AdmInIstrator            ......   ~(;'~ (~~
        SUBJECT:       Office of Inspector Oeneral (010) Draft Report: Review of the Centers for
                       Medicare & Medicaid Services' Audits of Part D Sponsors' Financial Records
                       (A-03-10-00007)


        Thank you for the opportunity to review and comment on the above 010 Draft Report. The
        OIG's audit focused on the annual audits of the Part D Sponsors and provided the Centers for
        Medicare & Medicare Services (CMS) with recommendations to improve the auditing process.
        eMS appreciates the time and resources the 010 has invested in the audit and is committed to
        improving its oversight of the Part D program.

        Since the implementation of the Part D program, CMS has strived to continuously improve the
        audit process. In the past few years, CMS has completed 609 audits for contract years 2006­
        2008 and is in the process of performing 253 audits for contract year 2009_ Additionally, eMS
        is preparing to audit 252 organizations for contract year 2010.

        The CMS welcomes constructive suggestions for improving the audit process, and we are in the
        process of implementing some of the recommendations included in your report. For example,
        CMS included the demonstration contracts in the calculation of the one-third financial audit
        requirement and is currently working to either incorporate some of the applicable one-third
        financial audit procedures into the Program of All-Inclusive Care for the Elderly (PACE)
        program audits or include PACE organizations as part of the current one-third audit process.
        Additionally, eMS enhanced our standard operating procedures (SOP) for ensuring audit
        findings are promptly resolved in the SOP revisions published in August 2011.

        The CMS addressed each of the report's recommendations. Also, we included technical
        comments for your consideration.

         OIG Recommendation
         Audit one-third of all part D sponsors.
                                                                                       Page 2 of 2




Page 2 - Daniel R. Levinson

CMS Response
We concur with this recommendation though we note that current policy is compliant with one­
third audit requirements. The OIG notes that CMS omitted both demonstrations and PACE
program organizations from the determination of the one-third audit requirement. In reference to
demonstrations, CMS included these contracts in the calculation ofthe one-third audit
requirement effective contract year 2008 and will continue to include them for future year audits.
Additionally, although PACE organizations have been exempt from the one-third financial
audits, CMS will evaluate ways for incorporating applicable one-third audit procedures into the
current PACE program audits or include PACE organizations as part of the current one-third
audit process. Specifically, CMS will incorporate procedures for verification of direct and
indirect remuneration (DIR) and Part D costs submitted to CMS.

OIG Recommendation
Update its SOP to ensure that policies and procedures are consistent with actual practices and
help ensure that sponsors' corrective actions are reported to CMS in a timely manner.

CMS Response
We concur with this recommendation. Since the OIG audit, CMS enhanced its process for
ensuring audit findings are promptly resolved and updated the SOP to reflect the actual practices
of this process. From July 2010 to August 2011 CMS enhanced the actual process for
submission and reporting of the one-third audit corrective action plans (CAPs). The standard
operating procedure updates are ongoing, with the latest version published in August 2011. As a
result, sponsors are reporting corrective actions timely. In addition, CMS will continue to update
the SOP to reflect any changes to our process.

We thank the OIG for presenting its findings and appreciate their perspective on these issues.
